 ···II~r-.L
..'
 "..
       ..SC/
         . .~-z.
          ..............
                                                                NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL

     .                          .
.o:ti.                          0
Z             .                 m                                  OFFICE OF INVESTIGATIONS
          .
     ...(\.       .        ... ~

          0V··· .          ,0                             CLOSEOUT MEMORANDUM
     ..           ND~~



Case Number: AllOl0004                                                                                      Page 1 of 1



                               We received allegations of plagiarism and improper attribution in an NSF proposal. I One
                      allegation stated Subject! (the Pli copied material into her (Subject! 's) NSF proposal from several
                      articles she co-authored. NSF's definition ofplagiarism does not include 'self-plagiarism', so there
                      is no substance to this allegation. A second allegation stated the proposal was written by an
                      unacknowledged person (Subject2 3). We learned Subject! has a disability that may justify having
                      others type her work. Regardless, we did not find evidence that anyone other than Subject! had
                      authored the proposal, even if she hired someone to physically type the proposal. However, we
                      found a small amount oftext that was insufficiently cited to its source, and we cautioned Subject 1 to
                      be more diligent in her citations. A third allegation stated the proposed work was the same as
                      previously published work, but our investigation showed otherwise.
                               We determined there was insufficient substance to any ofthe allegations that would warrant
                      further investigation. Accordingly, this case is closed.




NSF orG Fonn 2 (11102)
